Office of Inspector General
 for the Millennium Challenge Corporation



September 21, 2011

Mr. Patrick Fine
Vice President of Compact Operations
Millennium Challenge Corporation
875 Fifteenth Street, N.W.
Washington, DC 20005

Subject:            Limited Scope Review of the Millennium Challenge Corporation (MCC)
                    Resources Managed by the Millennium Development Authority (MiDA),
                    Under the Compact Agreement Between the MCC and the Government
                    of Ghana
                    (Report No. M-000-11-011-S)

Dear Mr. Fine:

This letter transmits our final report pertaining to our limited scope review of MiDA. In
finalizing the report, we considered your written comments on our draft report and
included those comments in their entirety in appendix II of this report.

Most of the issues and recommendations in this report were discussed with both MiDA
and MCC management immediately after the fieldwork ended. At that time, both MiDA
and MCC’s management was in general agreement with the issues and proposed
recommendations. On December 16, 2010 we provided a letter to MCC’s management
(included as Appendix IV) describing these issues to facilitate immediate attention.
MCC’s management responses dated August 2, 2011 and January 12, 2011 are
included in their entirety in Appendixes II and III, respectively.

The report contains ten recommendations to address: (1) putting funds to better use, (2)
improving the likelihood that the compact will be completed by its end date, and (3)
auditing a grant. MCC agreed with all ten recommendations. We consider that
management decisions have been reached on all 10 Recommendations and final action
taken on Recommendations 1-9. Final action will take place on Recommendation No.
10 when MCC approves the Compact Program Closure Plan.




Millennium Challenge Corporation
1401 H Street N.W.
Suite 770
Washington, DC 20005
www.usaid.gov/oig
I appreciate the cooperation and courtesy extended to my staff during this review.

Sincerely,

/s/

Alvin A. Brown
Assistant Inspector General
Millennium Challenge Corporation




cc:    John Mantini, MCC, Assistant General Counsel
       mantinijc@mcc.gov

       Arlene McDonald, MCC, Compliance Officer
       mcdonalda@mcc.gov

       William Gallagher, MCC, Director of Compact Implementation
       gallagherwj@mcc.gov

       Arlene Brown, MCC, Director, Fiscal Accountability
       browna1@mcc.gov

       Jim Bednar, MCC, Resident Country Director for Ghana
       bednarjf@mcc.gov

       Katerina Ntep, MCC, Deputy Resident Country Director for Ghana
       ntepks@mcc.gov




                                            2
SUMMARY
On August 1, 2006, the Millennium Challenge Corporation (MCC) and the Government
of Ghana signed a 5-year compact that totaled approximately $547 million and entered-
into-force on February 16, 2007. The goals of the compact are to reduce poverty
through economic growth by enhancing the profitability of agricultural production;
improve the delivery of business and technical services that support commercial
agriculture expansion; reduce transportation costs affecting agricultural commerce; and
strengthen rural institutions that provide services to agricultural projects under the
compact. Of the $547 million compact, $241 million was allocated to agriculture, $143.1
million to transportation, $101.3 million to rural development and the remainder allocated
to monitoring and evaluation and program administration. The Ghanaian government
designated the Millennium Development Authority (MiDA) as the accountable entity that
would have the legal authority to oversee the compact.1

The objective of this review was to answer the following questions:

       What is the current status of several compact projects, including the upgrading of
       the National Highway, trunk roads, and the Agricultural Credit Program?

       Are there any weaknesses in the existing internal controls related to the
       procurement process?

According to the construction contractor, the Lot 2 section of the National Highway Road
Project (funded at $83.6 million) cannot be completed by the end of the compact without
additional funding. The contractor, MSF, in its “Acceleration Study Programme and Cost
Package of Measures” has requested $13.9 million in additional funding for “road
construction acceleration costs” to complete Lot 2 of the National Highway by the end of
the compact period in February 2012.

The Trunk Roads Project (budgeted at $31.8 million) is also at risk of not being
completed by February 2012. At the time of the Office of Inspector General’s (OIG)
fieldwork, a portion of the AF-2 trunk road was underwater as a result of floods, and
construction could not proceed on this portion of the road.

The Irrigation Project may not be completed on time. At the time of our review only the
feasibility designs and studies had been completed. This occurred as a result of
unanticipated delays in completing preliminary steps in implementation of the Irrigation
Project (putting into place suitable institutional and/or operational arrangements for some
of the schemes, etc.).

Additionally, the Agricultural Credit Program has not met expectations owing to, among
other factors, poor performance by the Bank of Ghana and Agricultural Credit Program
consultant, unrealistic cash flow assumptions used in the borrowers’ business plans, and
lack of capacity on the part of some of the participating financial institutions. This allows

1
 Per Act 702 of the Parliament of the Republic of Ghana, The Millennium Development Authority
Act, 2006.


                                             3
MCC and MiDA the opportunity to reevaluate the planned uses of the funds associated
with the Agricultural Credit Program and possibly put them to better use.

Funding of $1.8 million has been held in a non-interest bearing bank account unused for
several years. The account was opened at the request of MCC and the funds are to be
used to purchase land as part of the resettlement action plan. However, the $1.8 million
should be used for immediate compact expenditures and funds requested on an “as-
needed” basis through the Common Payment System for the purchase of land as part of
the resettlement action plan.

OIG met and discussed most of these issues and recommendations with both MiDA and
MCC management immediately after the fieldwork ended. At that time, both MiDA and
MCC management were in general agreement with the issues and proposed
recommendations. OIG also provided a letter to MCC’s management (included as
Appendix IV) on December 16, 2010, describing these issues to facilitate its immediate
attention. MCC’s management responses dated August 2, 2011 and January 12, 2011
are included in their entirety in Appendixes II and III, respectively.

The OIG recommends:

         The Millennium Development Authority take immediate measures to
         address the contractor’s, “Acceleration Study Programme and Cost
         Package of Measures” to ensure timely completion of the Lot 2 section of
         the National Highway. (See page 7)

         The Millennium Challenge Corporation and Millennium Development
         Authority coordinate and develop contingency plans for the completion of
         Lot 2. (See page 7)

         The Millennium Challenge Corporation and Millennium Development
         Authority coordinate and develop contingency plans for the completion of
         the AF-2 trunk road. (See page 7)

         The Millennium Challenge Corporation and Millennium Development
         Authority decommit or reallocate to other compact projects or activities
         the $4.3 million budgeted, but not yet disbursed to the Agriculture Credit
         Program. (See page 8)

         The Millennium Challenge Corporation and Millennium Development
         Authority decommit or reallocate to other compact projects the $4.5
         million of funds currently in the Agriculture Credit Program repayment
         account. (See page 8)

         The Millennium Challenge Corporation and Millennium Development
         Authority develop plans to (a) collect as much of the $15.8 million of loans
         outstanding as possible, and (b) determine how best to use the funds
         collected. (See page 9)




                                            4
        The Millennium Development Authority transfer the $1.8 million to a
        permitted account so it can be used for other compact activities. (See
        page 9)

        The Millennium Challenge Corporation and Millennium Development
        Authority (a) determine the feasibility of completing the Irrigation Project
        by compact end, and (b) if it is determined that it is not feasible to
        complete the Irrigation Project by compact end, develop a contingency
        plan. (See page 9)

        The Millennium Development Authority arrange for audit coverage of the
        $2 million Alliance for Green Revolution Agency grant. (See page 10)

        The Millennium Development Authority determine what will be done with
        any funds remaining from the Alliance for Green Revolution Agency grant
        activity at the end of the grant period. (See page 10)

Detailed results of this review appear in the following section. The scope and
methodology are included in Appendix I. MCC agreed with all ten recommendations.
We consider that management decisions have been reached on all 10
Recommendations and final action taken on Recommendations 1-9. Final action will
take place on Recommendation No. 10 when MCC approves the Compact Program
Closure Plan.




                                           5
REVIEW RESULTS
Road Projects Are at Risk
of Not Being Completed

Both Lot 2 of the National Highway and the Trunk Roads Projects are behind schedule
and at risk of not being completed by the compact’s expiration in February 2012.
According to the construction contractor, the Lot 2 section of the National Highway Road
Project (funded at $83.6 million) cannot be completed by the end of the compact without
additional funding. According to MiDA officials, the delays occurred because of
resettlement issues, because the consultation, design, and feasibility studies were not
done prior to the entry-into-force date2, and because of unseasonal rains. The
contractor, MSF, in its “Acceleration Study Programme and Cost Package of Measures”
has requested $13.9 million in additional funding for “road construction acceleration
costs” to complete Lot 2 of the National Highway by the end of the compact period in
February 2012.

The Trunk Roads Project (budgeted at $31.8 million) is also at risk of not being
completed by February 2012. At the time of OIG’s fieldwork, a portion of the AF-2 trunk
road was underwater owing to floods (as shown in the photograph below), and
construction could not proceed on this portion of the road.




Photo of the AF-2 Trunk Road underwater in Ghana. (Photograph by MiDA’s procurement agent.)



2
 The compact was signed on August 1, 2006 and the entry-into-force date was February 16,
2007.

                                                 6
Representatives from the relevant contractors, the project consulting engineers, and
MiDA plan to meet to determine when the remaining road project activities can be
realistically completed. Revised project timelines are expected in mid-December 2010,
and updated cost estimates are expected by mid-January 2011.

Immediately after fieldwork ended, OIG met with both MiDA and MCC officials regarding
these issues. At that time, management from both parties was in general agreement
with the issues and following recommendations. As a result, OIG makes the following
recommendations:

        Recommendation 1: We recommend that the Millennium Development
        Authority take immediate measures to address the contractor’s,
        “Acceleration Study Programme and Cost Package of Measures” to ensure
        timely completion of the Lot 2 section of the National Highway.

        Recommendation 2: We recommend that the Millennium Challenge
        Corporation and Millennium Development Authority coordinate and develop
        contingency plans for the completion of Lot 2.

        Recommendation 3: We recommend that the Millennium Challenge
        Corporation and Millennium Development Authority coordinate and develop
        contingency plans for the completion of the AF-2 trunk road.


The Agricultural Credit Program
Has Not Met Expectations

The Agricultural Credit Program (ACP) has not met expectations established by MiDA
and MCC at the inception of the program. MiDA expected that a maximum of 20 percent
of the loan portfolio would be at risk of nonrepayment. However, as of
September 30, 2010, 70.6 percent of the ACP loan portfolio3 was greater than 30 days
past due4 and 54.5 percent of the Participating Financial Institution (PFI) loan portfolio5
was greater than 30 days past due (see Table 1). The poor performance of the ACP is
well understood and documented by MCC and MiDA.

The following factors led to the poor performance:

         A lack of capacity on the part of the Bank of Ghana

         Some PFIs borrowing more from the revolving credit fund than was prudent

         A low level of competency of the staff at some PFIs, especially at rural banks


3
  The ACP portfolio refers to the portfolio of loans the participating financial institutions took out
from the revolving credit fund.
4
  The 70.6 percent refers to portfolio-at-risk, which is defined as the “Share of value of all loans
disbursed from the agricultural loan fund that have one or more installments of principal or
interest past due over thirty (30) days, disaggregated by short-term and medium-term loans.”
5
  The PFI portfolio refers to the portfolio of loans the PFIs made to sub-borrowers, such as
farmers.


                                                   7
         Overly optimistic business plans with unrealistic agricultural price assumptions

         Inadequate and inconsistent loan documentation, including borrowers not having
         been given detailed repayment schedules to record payments of principal and
         interest


Table 1. Loans Past Due

                                                                    Expected
                                                           Actual   Maximum    Difference
Agricultural Credit Program (ACP) Portfolio               70.60%      20%       50.60%
Participating Financial Institution (PFI) Portfolio       54.50%      20%       34.50%


As of September 30, 2010, the balance of loans outstanding to PFIs under the ACP was
$15.8 million. It is difficult to determine how much of the $15.8 million will ultimately be
repaid, but the poor credit performance suggests that credit losses will be large and
more than originally anticipated.

In addition to the $15.8 million loan portfolio, as of September 30, 2010, approximately
$3.7 million was held in the ACP repayment account at the Bank of Ghana. This $3.7
million was available for lending to new borrowers. Subsequent to our fieldwork, MCC
notified us that the $3.7 million amount increased to $4.5 million, which should be put to
better use.

MCC has disbursed $19.6 million of the $26 million budgeted for use in the ACP. The
remaining $6.4 million was still available for disbursement to the ACP.          However,
subsequent to our fieldwork, MCC notified us that the total amount budgeted but
undisbursed was $4.3 million. As a result of the difficulties associated with the ACP, all
or a portion of the $4.3 million should be put to better use.

As a result of the ACP’s difficulties, the MCC and MiDA now have the opportunity to
reevaluate the planned uses of the associated funds and possibly put them to better use.
Accordingly, OIG makes the following recommendations:

        Recommendation 4: We recommend that the Millennium Challenge
        Corporation and Millennium Development Authority decommit or reallocate
        to other compact projects or activities the $4.3 million budgeted, but not yet
        disbursed to the Agriculture Credit Program.

        Recommendation 5: We recommend that the Millennium Challenge
        Corporation and Millennium Development Authority decommit or reallocate
        to other compact projects the $4.5 million of funds currently in the
        Agriculture Credit Program repayment account.




                                                      8
       Recommendation 6: We recommend that the Millennium Challenge
       Corporation and Millennium Development Authority develop plans to (a)
       collect as much of the $15.8 million of loans outstanding as possible, and
       (b) determine how best to use the funds collected.


Resettlement Funding of
$1.8 million Held in a
Non-interest Bearing Account

Funding of $1.8 million has been held in a non-interest bearing bank account unused for
several years. The account was opened at the request of MCC and the funds are to be
used to purchase land as part of the resettlement action plan. However, it is uncertain
how much of the $1.8 million will ultimately be needed to purchase the land.
Accordingly, the $1.8 million should be used for immediate compact expenditures and
funds requested on an “as-needed” basis through the Common Payment System for the
purchase of land as part of the resettlement action plan.

       Recommendation 7: We recommend that the Millennium Development
       Authority transfer the $1.8 million to a permitted account so it can be used
       for other compact activities.


The Irrigation Project May
Not be Completed on Time

The Irrigation Project may not be completed on time. At the time of our review only the
feasibility designs and studies had been completed. This occurred as a result of
unanticipated delays in completing preliminary steps in implementation of the Irrigation
Project (putting into place suitable institutional and/or operational arrangements for some
of the schemes, etc.). The initial compact plan was to irrigate 5,060 hectares and be
implemented over 4 years (beginning in 2008 and ending in 2012). That coverage has
now been reduced to about 1,880 hectares at an estimated construction cost of $13.6
million. Consequently, it may be difficult to complete the project over the remaining
compact period. Accordingly, OIG makes the following recommendation:

       Recommendation 8: We recommend that the Millennium Challenge
       Corporation and Millennium Development Authority (a) determine the
       feasibility of completing the Irrigation Project by compact end, and (b) if it is
       determined that it is not feasible to complete the Irrigation Project by
       compact end, develop a contingency plan.


Grant to AGRA Not Audited

Audit coverage has not been arranged for a $2 million grant provided to the Alliance for
Green Revolution Agency (AGRA). The grant agreement states that MiDA will
contribute $2 million to AGRA, which will in turn contribute $0.5 million. The combined
$2.5 million will serve as a first loss guarantee on agriculture-related loans issued by a
private bank.




                                             9
AGRA is a “Covered Provider” as defined by the Ghanaian compact and therefore is
required to be audited. Section 3.8(d)(iii) of the compact states,

           The Government shall submit, or cause to be submitted, to MCC…a
           plan…for the audit of the expenditures of any Covered Providers…which
           audit plan, in the form and substance as approved by MCC, the Government
           shall adopt, or cause to be adopted, no later than sixty (60) days prior to the
           end of the first period to be audited (such plan, the “Audit Plan”).

The grant agreement contains numerous provisions under which the grant is intended to
be implemented. The provisions include establishment of steering and oversight
committees, guarantee fund and Ghana loan portfolio operations, claims, recoveries,
and duties and responsibilities of the partners.

Additionally, according to the grant agreement, any funds remaining at the end of the
grant period will be returned to MiDA or its designee. To date, MiDA has not identified a
designee. Therefore, any funds remaining at the end of the grant period will be returned
to MiDA. OIG makes the following recommendations:

       Recommendation 9: We recommend that the Millennium Development
       Authority arrange for audit coverage of the $2 million Alliance for Green
       Revolution Agency grant.

       Recommendation 10: We recommend that the Millennium Development
       Authority determine what will be done with any funds remaining from the
       Alliance for Green Revolution Agency grant activity at the end of the grant
       period.




                                           10
EVALUATION OF
MANAGEMENT COMMENTS
On August 2, 2011, MCC provided a formal response to our draft report (included as
Appendix II). Subsequently, in an e-mail dated August 31, 2011, MCC clarified its formal
response to our draft report. Consequently, we modified Recommendations 4 and 5 in
the draft report to those Recommendations shown in this final report.

MCC agreed with all ten recommendations. We consider that management decisions
have been reached on all 10 Recommendations and final action taken on
Recommendations 1-9. Final action will take place on Recommendation No. 10 when
MCC approves the Compact Program Closure Plan.

MCC agreed with Recommendation No. 1 and has already worked with MiDA to begin
settlement of the contractor’s claims. On May 13, 2011, MiDA and the Engineer agreed
to an interim payment of $8.084 million and that amount has since been paid to the
contractor. The purpose of the interim payment was to partially settle the contractor's
delay claim and request for extension of time and to provide for reimbursement of
acceleration costs to be incurred by the contractor to reach completion by the agreed
date of January, 31 2012. Assuming successful resolution of the balance of the claim
and payment of appropriate acceleration costs, the contractor has indicated it can
complete construction by January 31, 2012. OIG considers that a management decision
has been reached which also constitutes final action.

MCC agreed with Recommendation No. 2 and has already taken steps to ensure
reasonable contingency plans for the completion of Lot 2 are developed. In connection
with the preparation of closure plans and contingency plans, meetings involving MCC, its
independent engineer, and MiDA were held with the transportation construction
supervisors in May 2011 to discuss, among other things, contingency plans for contracts
facing significant completion risk. More recently, at its June 2011 meeting, the Board of
Directors of MiDA has made a similar request, reinforcing the need for contingency
planning to ensure completion of all works contracts. Discussions have also been
initiated with the Government of Ghana regarding the possible need for additional funds
from government to complete the works. OIG considers that a management decision
has been reached which also constitutes final action.

MCC agreed with Recommendation No. 3 and has been engaged in discussions with
MiDA regarding contingency plans for the completion of the AF-2 trunk road. As part of
the Compact Program Closure Plan currently being drafted by MiDA and reviewed by
MCC, MCC has requested that MiDA complete contingency plans for all projects and
activities, including addressing the completion risk associated with the AF-2 trunk road.
In terms of contingency planning specifically for AF-2, consideration is being given to
reduction in the amount of sealing such that the road would end up as a combination of
a sealed and gravel road. MCC has determined that decisions as to how to proceed will
have to be made in the next few weeks and revisited again in October 2011 in order to
ensure contract work is completed by the end of the Compact term. OIG considers that
a management decision has been reached which also constitutes final action.

MCC agreed with Recommendation Nos. 4 and 5 and, together with MiDA, has already
begun the process of re-allocating the remaining undisbursed funds originally budgeted

                                           11
for the Agriculture Credit Program to other Compact activities. MCC determined that no
new Compact funds would be disbursed to MiDA for ACP loans and MCC and MiDA
subsequently determined that all lending, including lending funded by recycled receipts,
would also cease. As to funds reallocation, MCC stated in an e-mail dated
 August 31, 2011, that a total of $8.8 million has been put to better use.
The $8.8 million is composed of $4.3 million of budgeted but undisbursed ACP funding
and $4.5 million from the ACP repayment account. Additionally, MiDA is currently in the
process of reviewing other Compact projects and activities to identify areas where
remaining funds are needed. OIG considers that a management decision has been
reached which also constitutes final action.

MCC agreed with Recommendation No. 6. MiDA is committed to recouping payments
to the extent possible. MiDA and MCC have designed and MiDA has implemented a
plan to recoup as much as possible from end-borrowers through the PFIs before the end
of the Compact. Additionally, MCC and MiDA continue to explore various options for
collections outside of the PFIs. A team was in Accra, Ghana the week of July 25, 2011
reviewing progress and revising the action plan for maximizing collections from
borrowers, PFIs, and banks. MiDA has focused on using existing personnel to ensure
payments are collected during the life of the Compact. OIG considers that a
management decision has been reached which also constitutes final action.

MCC agreed with Recommendation No. 7. After discussions with MCC, MiDA
submitted and MCC approved a no objection request to transfer the $1.8 million to a
permitted account to be managed and used in accordance with the terms of the
Compact and the Bank Agreement on July 22, 2011. An equal amount of Compact
funds not yet disbursed will remain committed in the activity’s budget for resettlement
payments until expended for outstanding claims by Project Affected Persons or until it
becomes evident the amount will not be expended prior to the end of the Compact, in
which case the funds will be expended for another purpose approved by MCC. OIG
considers that a management decision has been reached which also constitutes final
action.

MCC agreed with Recommendation No. 8. MCC has been working with MiDA since
October 2010 to determine how to appropriately re-scope the Compact’s Irrigation
Activity. The scope of the Irrigation Activity has already been reduced. Of the amount
originally budgeted for the Irrigation Activity, approximately $6 million was committed
and disbursed for the completion of feasibility studies, designs, and environmental and
social assessments during the activity’s planning phase and in covering the irrigation
activity’s share of the cost of the project management consultant. Another $3 million
was set aside for construction supervision with the balance remaining for construction
works for three lots in three Intervention Zones, albeit for a lesser number of hectares
than originally planned.

In addition MiDA, under MCC’s oversight, is monitoring the progress of construction and
the environmental and social impact of the irrigation schemes, and planning for the
sustainability of the activity. MCC will continue to work with MiDA on a plan for project
completion that acknowledges any re-scoping, contingency plans, and final work plan
necessary for ensuring completion of the activity within the Compact term. Contingency
planning will be included as part of the Compact Program Closure Plan, expected to be
approved by August 31, 2011. OIG considers that a management decision has been
reached which also constitutes final action.


                                           12
MCC agreed with Recommendation No. 9. AGRA has been added to current and
future MiDA external audits. On May 13, 2011, OIG approved the audit planning
document for the period July 1, 2010-December 31, 2010, which includes the covered
provider AGRA. Going forward, AGRA is included in the audit contract’s Terms of
Reference (TOR) for all subsequent periods including the final audit period through the
Compact closure period. OIG considers that a management decision has been reached
which also constitutes final action.

MCC agreed with Recommendation No. 10. MCC will instruct MiDA to decide what will
be done with the remaining funds in the AGRA grant at the end of Compact. This must
be completed as a requirement of the Compact Program Closure Plan for the Ghana
Compact, currently being drafted by MiDA and reviewed by MCC. As previously
mentioned, the Compact Program Closure Plan is expected to be approved by
August 31, 2011. OIG considers that a management decision has been reached. Final
action will take place on Recommendation No. 10 when MCC approves the Compact
Program Closure Plan.




                                          13
                                                                            APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General conducted this review of the Millennium Development
Authority to determine the current status of several compact projects, including the
upgrading of the National Highway, trunk roads, and the Agricultural Credit Program.
Also, we sought to develop recommendations that would improve the likelihood that the
compact projects will be finished by the compact end date and to identify obvious
internal control weaknesses in the procurement process in order to lessen the probability
of waste, fraud, and abuse. While this was not an audit, we planned and performed this
review to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our review objectives. We also conducted this review
in accordance with Government Auditing Standards, specifically Chapter 3 and Chapter
7, Sections 7.55 and 7.72 to 7.79. The fieldwork for this review was conducted from
October 10 to October 28, 2010, in Ghana.

Methodology
We interviewed Millennium Development Authority management, the independent
procurement agent, and managers of the road projects, Agriculture Credit Program
(ACP), and procurement office. We conducted a site visit of Lot 2 of the National
Highway Road Project, and we reviewed pertinent documentation related to the road
projects, ACP, and procurement process.

To answer the review objectives, steps were established to determine the following:

       What is the current status of several compact projects, including the upgrading of
       the National Highway, trunk roads, and the Agricultural Credit Program?

       Are there any weaknesses in the existing internal controls related to the
       procurement process?




                                           14
                                                                             APPENDIX II


   MANAGEMENT COMMENTS



August 2, 2011

Mr. Alvin Brown
Assistant Inspector General
For the Millennium Challenge Corporation
1401 H Street NW, Suite 770
Washington, DC 20005


The Millennium Challenge Corporation (MCC) appreciates the opportunity to respond to
the Office of Inspector General’s (OIG) draft report dated July 26, 2011, entitled
“Limited Scope Review of the Millennium Challenge Corporation (MCC) Resources
Managed by the Millennium Development Authority (MiDA), Under the Compact
Agreement Between the MCC and the Government of Ghana” (Report No. M-000-11-
00X-S). MCC’s specific responses to the 10 recommendations in the draft report are
detailed below. The actions outlined in this letter constitute MCC’s management
decision with respect to each of the recommendations.

1. The OIG recommends that the Millennium Development Authority take immediate
measures to address the contractor’s, “Acceleration Study Programme and Cost
Package of Measures” to ensure timely completion of the Lot 2 section of the National
Highway.

MCC agrees with this recommendation and has already worked with MiDA to begin
settlement of the Contractor’s claims. Resolving the Contractor's "Acceleration Study
Programme and Cost Package of Measures" in order to ensure timely completion of the
Lot 2 section of the National Highway has been a priority for both MiDA and MCC. On
May 13, 2011, MiDA and the Engineer agreed to an interim payment of $8.084 million
and that amount has since been paid to the Contractor. The purpose of the interim
payment is to partially settle the Contractor's delay claim and request for extension of
time and, in addition, to provide for reimbursement of acceleration costs to be incurred by
the Contractor to reach completion by the agreed date of January, 31 2012. A work
program demonstrating how that date can be met has been provided to MiDA and the
Contractor has taken steps to accelerate the pace of work. A recommendation has been
put forward regarding settlement amounts for both the delay claim and the acceleration
and the parties have resumed discussions as of July 28, 2011, to finalize the negotiations


                                            15
                                                                             APPENDIX II


and arrive at the final settlement amount, which will be fully justified and accompanied
by supporting documentation. By putting the claim behind them and making payments
necessary for acceleration, all parties, MiDA, the Engineer, and Contractor, can
concentrate on the completion of the construction works. Assuming successful resolution
of the balance of the claim and payment of appropriate acceleration costs, the Contractor
has indicated it can complete construction by January 31, 2012.

2. The OIG recommends that the Millennium Challenge Corporation and Millennium
Development Authority coordinate and develop contingency plans for the completion of
Lot 2.

MCC agrees with this recommendation and has already taken steps to ensure reasonable
contingency plans for the completion of Lot 2 are developed. First, as a noted in the
response to recommendation 1 above, assuming successful resolution of the Contractor's
"Acceleration Study Programme and Cost Package of Measures" that would include the
payment of acceleration costs by MiDA under the construction contract, the Contractor
has agreed to a completion date of January 31, 2012 for Lot 2 of the N1 Highway. In
addition, as part of the Compact Program Closure Plan currently being drafted by MiDA
and reviewed by MCC, MCC has requested that MiDA complete contingency plans for
all projects and activities, including completion of the construction on N1 Lot 2. The
Compact Program Closure Plan is expected to be approved by August 31, 2011. In
connection with the preparation of closure plans and contingency plans, meetings
involving MCC, its independent engineer, and MiDA were held with the transportation
construction supervisors in May to discuss, among other things, contingency plans for
contracts facing significant completion risk. More recently, at its June meeting, the
Board of Directors of MiDA has made a similar request, reinforcing the need for
contingency planning to ensure completion of all works contracts. Discussions have also
been initiated with the Government of Ghana regarding the possible need for additional
funds from government to complete the works.

3. The OIG recommends that the Millennium Challenge Corporation and Millennium
Development Authority coordinate and develop contingency plans for the completion of
the AF-2 trunk road.

MCC agrees with this recommendation and has been engaged in discussions with MiDA
on the issue. As part of the Compact Program Closure Plan currently being drafted by
MiDA and reviewed by MCC, MCC has requested that MiDA complete contingency
plans for all projects and activities, including addressing the completion risk associated
with the AF-2 trunk road. It is understood that, at the time of the OIG LSR field work in
2010, very little tangible progress had been made on AF-2. Since then, however, the
Contractor, who was awarded both Lots AF-1 and AF-2, has continued to make progress
on AF-1, reaching 75% physical completion as of the end of June 2011, at the same time
bringing AF-2 up to a completion level of almost 44% (per the supervisor’s Monthly
Progress Reports for AF-1 and AF-2 dated June 2011). As completion on AF-1 nears,
the Contractor will be able to dedicate a greater share of resources to AF-2. In terms of
contingency planning specifically for AF-2, consideration is being given to reduction in

                                            16
                                                                             APPENDIX II


the amount of sealing such that the road would end up as a combination of a sealed and
gravel road. MCC has determined that decisions as to how to proceed will have to be
made in the next few weeks and revisited again in October 2011 in order to ensure
contract work is completed by the end of the Compact term.

MCC will jointly respond to recommendations 4 and 5.

4. The OIG recommends that the Millennium Challenge Corporation and Millennium
Development Authority decommit or reallocate to other compact projects or activities
the $6.4 million budgeted, but not yet disbursed to the Agriculture Credit Program.

5. The OIG recommends that the Millennium Challenge Corporation and Millennium
Development Authority decommit or reallocate to other compact projects the $3.7
million of funds currently in the Agriculture Credit Program repayment account.

MCC agrees with each of these recommendations and, together with MiDA, has already
begun the process of re-allocating the remaining undisbursed funds originally budgeted
for the Agriculture Credit Program to other Compact activities. Indeed, at the time of the
OIG field work that formed the basis for these recommendations, MCC and MiDA had
already conducted an initial joint review of the ACP utilizing MiDA’s internal auditor.
As a result of its ongoing review, MCC determined that no new Compact funds would be
disbursed to MiDA for ACP loans and MCC and MiDA subsequently determined that all
lending, including lending funded by recycled receipts, would also cease. As to
reallocation, MiDA formally requested US$4.5 million be re-directed to the Rural
Financial Services Activity, using the remaining funds in the ACP repayment account
plus a portion of the ACP funding remaining undisbursed under the Compact, and MCC
approved that request in June 2011. MiDA is currently in the process of reviewing other
Compact projects and activities to identify areas where the remaining funds are needed.
In addition, as part of the Compact Program Closure Plan currently being drafted by
MiDA and reviewed by MCC, MiDA is determining how the program will ultimately be
closed out. As previously mentioned, the Compact Program Closure Plan is expected to
be approved by August 31, 2011.

6. The OIG recommends that the Millennium Challenge Corporation and Millennium
Development Authority develop plans to (a) collect as much of the $15.8 million of
loans outstanding as possible, and (b) determine how best to use the funds collected.

MCC agrees with this recommendation. MiDA is committed to recouping payments to
the extent possible. MiDA and MCC have designed and MiDA has implemented a plan to
recoup as much as possible from end-borrowers through the PFIs before the end of the
Compact. Additionally, MCC and MiDA continue to explore various options for
collections outside of the PFIs. A team was in Accra the week of July 25th reviewing
progress and revising the action plan for maximizing collections from borrowers, PFIs,
and banks. MiDA has focused on using existing personnel to ensure payments are
collected during the life of the Compact. In addition, as noted above in connection with
MCC response and management decision with respect to recommendations four and five,

                                            17
                                                                              APPENDIX II


as part of the Compact Program Closure Plan currently being drafted by MiDA and
reviewed by MCC, MiDA is determining how the program will ultimately be closed out.
As previously mentioned, the Compact Program Closure Plan is expected to be approved
by August 31, 2011.

7. The OIG recommends that the Millennium Development Authority transfer the $1.8
million [funding for resettlement in a non-interest bearing account] to a permitted
account so it can be used for other compact activities.

MCC agrees with this recommendation. After discussions with MCC, MiDA submitted
and MCC approved a no objection request to transfer the $1.8 million to a permitted
account to be managed and used in accordance with the terms of the Compact and the
Bank Agreement on July 22, 2011. An equal amount of Compact funds not yet disbursed
will remain committed in the activity’s budget for resettlement payments until expended
for outstanding claims by Project Affected Persons or until it becomes evident the
amount will not be expended prior to the end of the Compact, in which case the funds
will be expended for another purpose approved by MCC.

8. The OIG recommends that the Millennium Challenge Corporation and Millennium
Development Authority (a) determine the feasibility of completing the Irrigation
Project by compact end, and (b) if it is determined that it is not feasible to complete the
Irrigation Project by compact end, develop a contingency plan.

MCC agrees with this recommendation. In fact, MCC has been working with MiDA
since October 2010 to determine how to appropriately re-scope the Compact’s Irrigation
Activity. Indeed, the scope of the Irrigation Activity has already been reduced Of the
amount originally budgeted for the Irrigation Activity, approximately $6 million was
committed and disbursed for the completion of feasibility studies, designs, and
environmental and social assessments during the activity’s planning phase and in
covering the irrigation activity’s share of the cost of the project management consultant.
Another $3 million was set aside for construction supervision with the balance remaining
for construction works for three lots in the three Intervention Zones, albeit for a lesser
number of hectares than originally planned.

Bidding documents were prepared and released for works in all three lots. After
additional analysis and a determination that there were not sufficient remaining Compact
funds allocated to complete the Irrigation Activity as then contemplated, MCC approved
MiDA’s cancellation of Lot 2 of the Irrigation Activity, thereby saving on both
construction and construction supervision costs in amounts sufficient to adequately fund
the other lots. MiDA received bids September 30, 2010, and after the evaluation and
approval process, accepted the winning bid for each lot in December 2010 and signed
works contracts for Lots 1 and 3 in early 2011, as a result of which the entire budget for
the Irrigation Activity has been committed. The executed works contracts are
summarized below.




                                            18
                                                                           APPENDIX II


      Contract           Lot 1 Northern       Lot 3 Torgorme         Lot 3 KPIWSP
 Contractor            Jiangxi Zhongmei      Erdmac Company         Ceekabs Ltd
                       Engineering           Ltd
                       Construction
                       Company Limited
 Acceptance date       8 Dec 2010            17 Dec 2010            17 Dec 2010
 Contract signing      4 Mar 2011            7 Jan 2011             7 Jan 2011
 date
 Completion date    21 Jan 2012              21 Jan 2012            31 July 2011*
 Contract price     $ 3,046,861              $ 9,192,847            $ 1,386,237
       * As amended

MiDA, under MCC’s oversight, is monitoring the progress of construction and the
environmental and social impact of the irrigation schemes, and planning for the
sustainability of the activity. MCC will continue to work with MiDA on a plan for project
completion that acknowledges any re-scoping, contingency plans, and final work plan
necessary for ensuring completion of the activity within the Compact term. Contingency
planning will be included as part of the Compact Program Closure Plan, expected to be
approved by August 31, 2011.

9. The OIG recommends that the Millennium Development Authority arrange for audit
coverage of the $2 million Alliance for Green Revolution Agency grant.

MCC agrees with this recommendation. AGRA has been added to current and future
MiDA external audits. On May 13, 2011, OIG approved the audit planning document for
the period July 1, 2010-December 31, 2010, which includes the covered provider
AGRA. Going forward, AGRA is included in the audit contract’s Terms of Reference
(TOR) for all subsequent periods including the final audit period through the Compact
closure period. In addition to constituting MCC’s management decision, the actions
outlined above also represent MCC’s final action in regard to this recommendation.

10. The OIG recommends that the Millennium Development Authority determine what
will be done with any funds remaining from the AGRA grant at the end of the grant
period.

MCC agrees with this recommendation. MCC will instruct MiDA to decide what will be
done with remaining funds in the AGRA grant at the end of Compact. This must be
completed as a requirement of the Compact Program Closure Plan for the Ghana




                                           19
                                                                     APPENDIX II


Compact, currently being drafted by MiDA and reviewed by MCC. As previously
mentioned, the Compact Program Closure Plan is expected to be approved by
August 31, 2011.


Sincerely,




Patrick Fine /s/
Vice President of the Department of Compact Operations
Millennium Challenge Corporation


CC: Jonathan Bloom, Deputy Vice President of the Department of Compact
Operations
       Katerina Ntep, Resident Country Director, Ghana
       Arlene McDonald, MCC Compliance Officer




                                         20
                                                                                                           APPENDIX III


MANAGEMENT COMMENTS


     *
 MILLENNIUM
 CHAllENGE CORPORJ-n ON
 UNITED STATE.S OF AM ERICA



                                                                                            January 12, 2011

          Mr. Alvin Brown
          Assistant Inspector General
          For the Millennium Challenge Corporation
          1401 H Street NW, Suite 770
          Washington, DC 20005

          Dear Mr. Brown:

          Thank you for your letter of December 16 outlining concerns noted by the Office of Inspector
          General following the recent limited scope review ofMCC's Compact with the Government of
          Ghana. I appreciate the effort made by you and your team to bring the three items to my
          attention and have discussed them with the Ghana Country Team and Resident Mission in Accra
          Below are brief responses to each point regarding the current status, and an outline of steps MCC
          and MiDA are taking to address them.

          Issue 1: Delays in the construction of the Lot 2 section of the National Highway Road
          Project and Trunk Roads Project may mean completion is no longer possible within the
          Compact period.

          MCC and MiDA agree that a number of factors, including unseasonal rains, resettlement and
          utility relocation issues; have contributed to delayed construction on N I Lot 2. MiDA has been
          analyzing the remaining project activities and reviewing with the Lot 2 construction supervisor
          the "Acceleration Study Program and Cost Package of Measures" submitted by the contractor
          (MSF). MiDA is currently expecting from the contractor a revised version of that program, as
          requested just prior to the holidays, and, immediately upon receipt, will complete its analysis and
          enter into negotiations with the contractor to bring the matter to a mutually satisfactory
          resolution. MiDA, with the assistance of its construction supervisor and project management
          support consultant, is considering options for construction areas most heavily impacted by
          delayed resettlement as well as non-critical design elements that could be scaled down or
          removed from the contract. Such considerations will alleviate some budget concerns and
          improve the timeline for completion. MCC is closely coordinating with MiDA regarding the
          situation'and hencewil1 be in a position to provide a prompt response to MiDA's proposal,
          which is expected in the coming days. A contract variation may make sense to complete the
          works within specifications and within the term of the Compact, which expires in February 2012.

          While the teams are doing everything they can to ensure the Trunk Roads Activity is completed on
          time, they do recognize the possibility that, considering planned design and construction
          requirements, additional delays could likely push the completion date past the Compact term. To
          avoid this eventuality, MiDA is considering a range of measures from possible changes to



      875 Fiftoenth Street NW I   Washington. DC I   20005-=' I   p: (202) 521-3600 I f. (202) 521-.3700   I www.mcc.gov




                                                       21
                                                                                 APPENDIX III




pavement standards and additional scaling down of design and scope, within acceptable
international standards.

During my trip to Accra last week, I raised our grave concerns about completing these projects at
the highest levels of government, and received assurances that the GoG was fully cornmitted to
taking the actions necessary, including providing additional funds if necessary, to ensure the Nl
Lot 2 and Trunk Roads were completed within the Compact term.

Issue 2: Delay in starting the Irrigation Project and OIG recommendation to de-commit or
reallocate funds budgeted for the project.

Unanticipated delays in completing preliminary steps in implementation ofthe Irrigation
Activity (Le., additional due diligence; attracting and securing "anchor" tenants; putting into
place suitable institutional andlor operational arrangements for some of the schemes) have led to
implementation delays. Increased projected costs have also impacted on the design of the
program. As a result, the Irrigation Activity has recently been scaled down. Originally, three
lots were presented for bid. Budget and time considerations have resulted in MiDA eliminating
one of these lots, and consideration is being given to further cuts, while considering small scale
irrigation activities as an alternative to support poor farmers in the Northern Zone.

Issue 3: Performance of the Agricultural Credit Program and OIG recommendations to a)
develop a strategy for and focus on the recovery of outstanding loans, b) de-commit or
reallocate all or a portion ofthe $3.7 million in the ACP repayment account, and c) put all
or a portion of the $6.4 million still available for disbursement to the ACP to better use.

MCC first learned of the loan repayment problems in the ACP in Ql FY 2010 and immediately
notified MiDA that no additional funds would be made available. No additional funding for
ACP lending has been requested or approved since that time.

We agree that any additional lending should be minimal and should come from the reflow of
funds previously distributed to MiDA and that no additional MCC resources should be disbursed
to MiDA for that purpose. We appreciate that orG recognizes the importance of utilizing some
ACP funding to recover loans that are currently outstanding, and we note that some resources
may be appropriately used to support capacity building at the rural banks as well. Upon
finalizing a revised ACP implementation plan and corresponding budget, we anticipate
reallocating any remaining funds to other Compact activities.

Finally, during my visit to Accra this past week, MCC's outgoing and incoming Resident Country
Directors and I met with MiDA Senior Management to discuss the overall Compact budget and the
need to continue frequent risk analyses for all Compact activities. Appropriately, MiDA is taking a
holistic approach to reallocation of funding within the entire Compact budget. .This review will be
reflected in the March 2011 Disbursement Request. I believe this approach incorporates the
recommendations in your letter.

Please let me know if you would like additional information on any of the above items. Once
again, thank you. I am certain you will find this response to the issues raised in your letter,




                                    22
                                                                            APPENDIX III




reflecting actions by both MiDA and MCC, to be appropriate and timely, and I am confident that
these problems will be dealt with in a way that allows for the successful completion of the Ghana
Compact in accordance with MCC's principles and guidelines.


Sincerely,




Jonathan Bloom
Deputy Vice President of the Department of Compact Operations
Millennium Challenge Corporation


CC:    Patrick Fine, Vice President of the Department of Compact Operations
       Dennis Nolan, Deputy ChlefFinancial Officer
       Katerina Ntep, Resident Country Director, Ghana
       Arlene MacDonald, MCC Compliance Officer




                                     23
                                                                                                        APPENDIX IV




        I>J)~,   of   '''1''- r~.wl
        f .. ,•• ."'h...    ' .~   c...." ...... ~"""".i<.




 _",',.tI".,0I00n;
 o.~ ~ Y"~        ' "><.J,,.
                          <J l>o<or<,t, .. ,.      of C"""""" in "", '" ot<Ik~
 ~ I brri ' m Cl\;jfo"", C(""" "'~'"
 'I''' """..",,, "'"
 ;II"" ...... ,." , ll.C   2(10)';




 lh< - rt.nIo. fI<»O. P"",""           c "" 'n ~   bxl)<tod ., S,1,S moIIicn     j.   ai>O '"   ; j«   ot not boO)
 "" "r""'"" ..... Frlv ny """ -, no"",,"                                       F-, ,,,.-, '"'"
                                                             "" it"" ", " ,,,,,,.,,, ,.....                     ~
 "" ~,... ". do. ,,,,,,,,,"1 ..,,d ''''''''""''''''''''''~ ~ "" "'" ""'.., ," ".. "".t




..."""",- .          ~- ,
"" , ''''"''~~ ..... =
-.~~ . ~




                                                       24
                                                                                                                                     APPENDIX IV




fIOIl",,",c"',,,,,,     " 0<l ' -" r"'".~          «lrt,,,,,,,,,,,,, pr,*", c::rlOlit"ll eni'=, on!                                     MVA~'"
OJ """" O(X)I" "           d,"""'" """'"      the _' ~Ono;                            ",0<1 pr<'J<d *-1 """, ct''1 t>e                  '.~~lcaIy
~'"" .. """' .. ~OIOd t rr ........ '
"", "'''', .. " "" ock....J ", ' " ~ . ",,, "", ,', 20 , ,
                                                                       ''''"'''td n _            ''''-'' __ ' ;>010 00<              ,opOOI"" "",




""', tI" ""~""", ,d C<<<it P,,,,,,orn ~A CPI II '" tot                                   perf",,,., '" ,,.,,,
                                                                                 ~, 0, 0;' .... .                                           ,_<oJ,
For '''''' r rl<, 00 So;ptom bo<:)(J, 2>lt (, )'(t_W.. C>! " . AC P io;r1 ("""",,' ,"" g "'"" , th01 :;0
""'~ i=I duo" n" pn,""QO GC"l'a", '0                                                ,n
                                                               ~xp<"<d " • • of 20%' os stow, ~ flo
,-,:>"",,,.,,-
M<JIOo""." on "opI~",b,,, 00. '" 10, 6U'" 01 t ....                                   "'-_.>tl,,, •........,'" 'not''''''"
                                                                               I""') ''''''
p«"~",' "'..        9","<e ,"" 00 "'V'
                                  po'" "",                                   n. '0""""",,' """
                                                                 c~" to '" "p<ct<~
",.0/2')%,   Tho "' ,""''" fc< t~ """ po'f.nr~n ' ~ <J tho ~ 81' .... weI crd<t0i«<",""
doou...-t<>J       ~   MCC . ·ld      ~ ll A ,


'""   ~"I1e< __      >,('- U O1e """'= m _ ..
                       ;fJ ,                                        to       W ""' l<" ~        wos e'H. J1_lt ~ I\ ~~                          ''' . ~
'p,,,'"
 " ,~""'"',,"'>"" "". '-' M,,,"fer
                                   ~ ,,"" """,I' u' • '" $1 , ~ ,,'" '-'" "" .... lrtL~, "" f"'~
                 p" ' I""" ,~ ",, ~',         ~,
                                            ...." c"", "'''""''            b ,·,c     ","'o t",-"
                                                                                              wI) ..,              ;.-.d
                                                                                                                                   Ie        "" " "
                                                                                                                                            "'~
onr c ",-""       .oc"'m, ,'.... .........., "'" ",,,.
                                              e n ", " ""',.., .. b- ... nA one .., '''' '" ""'''''''r
• S'>!e", 1<>" ,eco'>fino ., ml£h cI I!le S IS.8 rT"Ilicn <J OO.s ouWcwl .., .,                 TI e                               "",,.jt;e,
""",'yf""" ,..,,"~ b< "" OW!                     W""',.,. d'C<t' ",1,.,- II ,." '"""'" """...,.
11 ><0 ' 00 '"      "'~   ;10.' ""       en oor          pt<'rI_ 00                ""'--oc '" , '01) 1""'"                  ..,.   o,:>rOrtrat..,-
CO.7 "" '''''' • . tt~ .Cr "'p'yr",. ««=n ....... , I I< 0",. 0' G""'" n I, "'.7 , ~"'" "
, .,:,,-,* '"      "'...-.g'o ,.-...
                              ~'"         00G "" "' ~'" " '"      -...,     $87
"" I.r.p ''1''',..- ~ """'''" ""' .-...""""'~"" '" ,.,'....~"'" "n .,,_ ~"""f""'1 -",;oc'"
                                                                                                              i"""'''-' ''''''              m""" "
b.. o:l on Iho oocr "'~"'.,-"""'. Ie cato

MCC "" ,,""',"" ~1 9." 'n l ""''' -,~ ~ ~ i lio"
"".,,"'. ot .., .'             ""'or ,.
                        «II " , ""~ !:::or """",,,,~CfII
                                                                                            WJ.:l""""'0I",AGP. .. "'" '1I... , ....
                                                                                                   '"
                                                                                                                               )'cP Th~
                                                                                                                                    " ,re
ditOo _    • •,.x~"'d             ,.' h th'   ' .G P. '" a- 0             p.ort~n        '" "" 50.' n'bn           .h,,,~      ""    p..<   '0'''-

,                                  __                                                     _ _ . ... _ _                       ....

-_.               -,,-.."' "                                                                                                --.
    ~ ' C ''''''''_,.''                       ~,_       ",_ ,,-,,",- ,,                                              .., ~~          _      ~.



,- ~   '" '" _ .,      ' ~ "'~'k ; '    w".,"    """H ...... _."                    ~_.      "   ,,~,   "..   ~ "., ,,~    _ _ ,.," ,_          , ~,


"",.,. , ~"                             ~   ,,'" "'-","''''' ""'                     .... :." .... "-'"                              ~ ""'­

, '" , ' "".- & .... "         -,~ .", """,,"_~        ..... .   -,.. ~ ,' .,, ~   j ." .• -....,- ,WC~ ••-" ._        ,' " ' - ...     _ , '~

, ~."     _'0 ' ,""'.             ~ ~'           ...   ~
, T,,. ... ""~, _          "~ . ""'oio~ ' ,.-. ~ .          -" .,,, .         ~ '~ "'"" ,        ,,,',, '."",




                                                                   25
                                                                                                       APPENDIX IV




""" TI~ ft.nj,         rr,...", be u''','"' het;J , o:=e' t he $"" rll101      ~1t_ d " ' ,. W""' ~
he jo-<""" h«l, 0(        ''''''),;at<-d to OII1er Q:.-,~"" D'or"'''
W ~ ~ " flan' ~         rn'llh   '..-r.i ~ , q   M.-... ""'...." 0< tno c..rrp,"",   1t,,:lI ~ ~ 1Iiof'j <t1 ~ Q   ,..
i" .., ~ so "'''' ,\ICC .rd \!iJ ~, C>t1 t"l« ",,'ion 10 ••,. ....           n"tt,o ,~,. :t ~ ,u.o" .. hJ
...-.l n ~tC:nwcII"''''' .... u>oJ ~ ho be<l rmrnor ,o>.rt>!<

,..,.".   ....
ANn' ""'''''
      . ,,,..,,,, 6 .... ..
;"'ri>1."
.. """ or.- '-"" "'V GQ'jIO~

cc    Den. 'IcIm , O",,",Vo, .. h , ..." .. Ottioo-
      N<1... 1Oeu; oQ1

      ~,..-      .. "' C"'".~, wee, C"' .. """         o.-~.

      """"""""""" o?V




                                                           ,



                                                      26
